                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: A-06070034                                                                      Page 1 of 1       I
          Our office received an allegation of plagiarism from a peer review panelist. As part of our
          review, we found two NSF proposals1 appeared to contain a small amount of copied text taken
          from several source documents. The total amount of plagiarized text was small and consisted of
          many phrases, with very little of the copied text being complete sentences.

          We wrote to the subject who accepted responsibility for the copied text although he stated he did
          not intend to plagiarize anything in his proposals. Given the small amount of text involved and
          the subject's admission and acceptance of the responsibility, we wrote him, emphasizing that, in
          the future, he should use great care to appropriately distinguish materials copied from the work of
          others into his proposals and other publications.

          Accordingly, this case is closed and no further action will be taken.




NSF OIG Form 2 (1 1/02)
